                                                       T OF HOMELAND SECURITY
                                                  Of fice of Inspector General
                                              Atlanta Field Office - Audit Division
                                                   3003 Chamblee Tucker Rd
                                                        Atlanta, GA 30341

                                                               November 20,2003

MEMORANDUM

TO:                          Daniel A. Craig.


FROM:
                             Field Office Director

SUBJECT:                    Town of Randolph, Vermont
                            FEMA Disaster No. 1228-DR-VT
                            Audit Report No. DA-06-04


The Office of Inspector General (OIG) audited public assistance funds awarded to the
Town of Randolph, Vermont. The objective of the audit was to determine whether the
Town accounted for and expended FEMA funds according to federal regulations and
FEMA guidelines.

The Town received an award of $1,461,743 from the Vermont Emergency Management
Agency, a FEMA grantee, to provide emergency protective measures and repair facilities
damaged as a result of severe floods in June 1998. The award provided 75 percent FEMA
funding for 5 large projects and 47 small projects1. Audit work was limited to the
$727,740 claimed under the 5 large projects (see Exhibit).

The audit covered the period June 1998 to April 2002. During this period, the Town
received $545,805 of FEMA funds under the 5 large projects.

The OIG performed the audit under the authority of the Inspector General Act of 1978, as
amended, and according to general accepted government auditing standards. The audit
included tests of the Town's accounting records, a judgmental sample of expenditures,
and other auditing procedures considered necessary under the circumstances.


Notice: This report remains the property of the DHS Ofice of Inspector General @HS-OIG) at all times and, as such, is not
to he publicly disclosed without the express permission of the DHS-OIG. Requests for copies of this report should be
immediately forwarded to the DHS Ofice of Counsel to the Inspector General to ensure strict compliance with all applicable
disclosure laws.




1
  According to FEMA regulations, a large project costs $47,100 or more and a small project costs less than
$47,100.
                                RESULTS OF AUDIT 


Except for questioned cost of $1,385 (FEMA share $1,039) resulting from unsupported
material charges under Project 35273, the Town properly accounted for and expended
FEMA funds. The Town's claim under the project included $4,155 for purchasing 60
culverts (concrete pipes). However, the supporting invoice (No. 26291) showed that only
40 culverts were purchased at a cost of $2,770. Accordingly, the OIG questions the
$1,385 ($4,155 less $2,770) of unsupported charges.

This condition existed because the Town had inadvertently included the culvert's
diameter of 60 inches as the quantity of items purchased under the project.

                                RECOMMENDATION

The OIG recommends that the Regional Director, in coordination with the grantee,
disallow the $1,385 of questioned costs.

          DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

The results of the audit were discussed with FEMA, grantee, and Town officials on
October 16, 2003. Town officials concurred with the finding.

Please advise the Atlanta Field Office -Audit Division by January 20,2003, of the
actions taken to implement the recommendation. Should you have any questions
concerning this report, please contact George Peoples or me at (770) 220-5242.
                                                                Exhibit

              Town of Randolph. Vermont
            FEMA Disaster No. 1228-DR-VT
        Schedule of Claimed and Questioned Costs


Amount               Amount       Amount           Amount
Number               Awarded      Claimed          Questioned

10087               $168,728     $168,728
10090                153,777      153,727
31533                227,291      227,29 1
34574                 70,074       70,074
35273                107.920      107.920            $1,385
Total               $727.790     $727.740            $1.385
                                                           Exhibit B

                       Town of Lincoln, Vennont
                    FEMA Disaster No. 1228-DR-VT
               Schedule of Unsupported Equipment Charges

Invoice                      Hours          Hours            Cost
 Date      Equipment Item   Claimed       Unsupported      Questioned

8116/98    Backhoe
8/16/98    Stone Truck
8116/98    Dirt Truck
8116/98    Gravel Truck
8/23/98    Stone Truck
8/23/98    Dirt Truck
8/23/98    Gravel Truck
911 3/98   Stone Truck
9/ 13/98   Gravel Truck
Total
